U.S. Department of the Interior
Office of Inspector General




       EVALUATION REPORT


       YEAR 2000 READINESS OF
  AUTOMATED INFORMATION SYSTEMS
               AT THE
      BUREAU OF INDIAN AFFAIRS

               REPORT NO. 98-I-479
                   JUNE 1998
                                                                        A-IN-BIA-00 I-98R


              United States Department                      of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, DC. 20240




                           EVALUATION REPORT


Memorandum

To:        Assistant Secretary for Indian Affairs
           The Special Trustee for American Indians

From:      Robert J. Williams
           Acting Inspector

Subject:   Evaluation Report on the Year 2000 Readiness of Automated Information
           Systems at the Bureau of Indian Affairs (No. 98-I-479)

                                INTRODUCTION
This report presents the results of our evaluation of the year 2000 (Y2K) readiness of
automated information systems at the Bureau of Indian Affairs. The objective of our review
was to determine whether the Bureau (1) inventoried its automated information systems and
identified those systems that were mission critical and were not Y2K compliant, (2)
developed auditable cost estimates for renovating systems to be Y2K compliant, (3)
identified by name an individual responsible for ensuring that the Bureau is Y2K compliant,
(4) ensured that responsible individuals’ personnel performance evaluation plans included
critical elements related to identifying and remedying Y2K problems, (5) developed a
credible plan that included milestones and a critical path to ensure that the Bureau is Y2K
compliant, and (6) developed a contingency plan that would address the failure of any part
of the systems not being Y2K ready. This review was conducted at the request of the
Department of the Interior’s Chief Information Officer to assist the Information Officer in
monitoring the progress of Departmental agencies in ensuring Y2K readiness, implementing
Y2K compliant systems, and validating the accuracy of the information reported by the
bureaus and Departmental offices to the Chief Information Officer.

BACKGROUND

The “Y2K problem” is the term used to describe the potential failure of information
technology systems, applications, and hardware related to the change to the year 2000.
Many computers that use two digits to keep track of the date will, on January 1, 2000,
recognize “double zero” not as 2000 but as 1900. This could cause computers to stop
running or to start generating erroneous data. The problem has been recognized as nationally
significant by the President in Executive Order No. 13073, issued in February 1998. The
Secretary of the Interior, in a December 1997 memorandum, stated that the Y2K problem
was critical to the Department’s meeting its mission and that resolution of the problem was
one of his highest priorities. Further, Office of Management and Budget Memorandum
98-02, “Progress Reports on Fixing Year 2000 Difficulties,” issued on January 20, 1998,
requires all Federal executive branch agencies, to ensure that Federal Government systems
do not fail in the year 2000, to have all systems, applications, and hardware renovated by
September 1998; validated by January 1999; and implemented (that is, “fixes to all systems--
both mission critical and nonmission critical”) by March 3 1, 1999, to ensure that Federal
Government systems do not fail in the year 2000. The Offtce of Management and Budget
states in Memorandum 98-02 that it is to provide “information to the Congress and the public
as part of its [Office of Management and Budget’s] quarterly summary reports on agency
progress . . . [and] to report on the status of agency validation and contingency planning
efforts and on progress in fixing . . . equipment that is date sensitive.”

The Department has a multitiered approach to managing the Y2K problem that includes a
top tier comprising the Secretary of the Interior; the Information Technology Steering
Committee, which comprises the Chief of Staff and Assistant Secretaries; and the Chief
Information Officer, who is responsible for the Department’s Y2K issues. This tier, which
represents senior-level Departmental managers, provides the Y2K project’s overall direction
and resources and ensures accurate reporting to external organizations such as the Office of
Management and Budget and the Congress. A Departmentwide Y2K project team, which
reports to the Chief Information Officer and comprises representatives from each agency and
the Office of the Secretary, is tasked with developing the Department’s Year 2000
Management Plan, refining inventory data on the Department’s mission-critical and
information technology portfolio systems,’ and monitoring and reporting the progress ofeach
conversion.    In addition, a Y2K Embedded Microchip* Coordinators Team has been
established to inventory and monitor embedded microchip technology Y2K problems. The
team is led by the Offrce of Managing Risk and Public Safety and comprises representatives
of the eight Departmental bureaus, the Denver Administrative Service Center, and various
Departmental offices. The Department has developed the “Department of the Interior Year
2000 Management Plan,” which focuses on resolution of the Y2K problem and provides an
overall strategy for managing Departmental mission-critical systems and infrastructure.

The Department’s February 1998 “Year 2000 Management Plan,” which was submitted to
the Offrce of Management and Budget, reported that the Department had 95 mission-critical
systems. Of the 95 mission-critical systems reported by the Department to the Office of
Management and Budget, the Bureau of Indian Affairs and the Office of the Special Trustee


‘The portfolio systems is an inventory listing of 13 cross-cutting    or sensitive systems that are receiving
attention at the Secretarial level.

2Embedded microchips are “integrated circuits (miniature circuit boards)” that “control electrical devices”
which include “elevators; heating, ventilation, and air conditioning (HVAC) systems; water and gas flow
controllers; aircraft navigational systems; and. . . medical equipment” and offtce devices such as telephones,
facsimile machines, pagers, and cellular telephones. (Department of the Interior’s Office of Managing Risk
and Public Safety “Year 2000 Embedded Microchip Hazards” [Website]).

                                                      2
for American Indians had 15 systems (see Appendix l), of which 4 are included in the
Department’s information technology portfolio.3 To address the Y2K problems, the Bureau
and the Office of the Special Trustee established a project management team comprising
senior executives and a task group. The senior executives are the Acting Director, Office of
Management and Administration, Bureau of Indian Affairs, and the Deputy Director for
Operations, Office of the Special Trustee. The task group comprises a manager and a
coordinator from the Offrce of Information Resources Management and nine members from
the Bureau’s Operations Service Center (3) and other Program offices (5) and the Office of
the Special Trustee’s Office of Trust Funds Management.

SCOPE OF EVALUATION

To accomplish our objective, we reviewed the documentation available that supported the
Bureau of Indian Affairs information submitted to the Department’s Chief Information
Officer through February 1998. We performed our review at the Bureau’s Operations
Service and Facilities Management and Construction Centers and the Office of the Special
Trustee for American Indians Office of Trust Funds Management, all of which are located
in Albuquerque, New Mexico. We interviewed personnel responsible for project
coordination to identify the Bureau’s Y2K plans and progress.4 We also interviewed
personnel involved in various aspects of the Y2K project, including coordination,
compliance identification, software remediation, and project management.

The evaluation was conducted in accordance with the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency and, accordingly, included such
tests and inspection procedures considered necessary to accomplish the objective. Our
conclusions on the status of the progress made by the Bureau in addressing and remediating
Y2K problems were based on reviews of documentation maintained by the Operations
Service Center and discussions with the Y2K coordinator and the Y2K task group members
who performed remediation or replacement of noncompliant applications or hardware. As
specifically agreed to in our discussions with the Department’s Chief Information Officer,
we did not validate or certify that the Bureau’s systems were Y2K compliant.




‘The four Bureau of Indian Affairs and Office of the Special Trustee for American Indians applications or
systems contained in the Department’s information technology portfolio are the Individual Indian Monies (IIM);
Land Records Information System (LRIS); Omni Trust ES; and Facilities, Construction, Operations, and
Maintenance (FACCOM) system.

4The Bureau of Indian Affairs is responsible for remediating the Y2K problem for existing systems, such as the
Individual Indian Monies system of the Office of Trust Funds Management, Office of the Special Trustee for
American Indians.

                                                      3
                           RESULTS OF EVALUATION
Although the Bureau’s Y2K project management had begun to identify systems and had
developed a master plan for remedying Y2K problems, it had not completed any of the six
objectives that the Chief Information Officer had requested us to evaluate. The specific
actions taken by the Bureau related to each objective are discussed in the paragraphs that
follow. As a result of not completing the objectives, we believe that there is an increased risk
that the Bureau may not meet the Offrce of Management and Budget’s target date of March
1999 for having compliant Y2K systems implemented. The Bureau has recently awarded
contracts to assist in its assessment, renovation, and implementation of compliant systems;
therefore, we have not made any recommendations. However, the Bureau should ensure that
sufficient resources are made available to meet its milestone dates.

Automated        Information        Systems Inventory

All of the Bureau’s mission- and nonmission-critical automated information systems may not
have been included in its inventory. According to the Department’s milestone dates,
agencies were required to have mission-critical systems inventoried and systems that were
not Y2K compliant identified by June 1997. Although national systems that were deemed
mission critical’ by the Bureau had been identified and noncompliance had been determined,
8 of the 12 Bureau area offices and 10 of 15 Bureau program and division offtces had not
responded to inventory requests made by the Bureau’s Director, O&e of Management and
Administration, dated January, July, and September 1997. Therefore, the Bureau had little
assurance that all mission- and nonmission-critical systems had been identified and reported
to the Department’s Chief Information Officer.

Auditable Cost Estimates

The documentation used to support the Bureau’s cost estimates for correcting the Y2K
problem in each of the Bureau’s 15 mission-critical systems was not maintained. To
accurately report the costs associated with correcting the Y2K problem, Office of
Management and Budget guidelines state that costs to rectify noncompliant Y2K systems
should be specifically related to Y2K efforts, such as repairing the lines of source code6 or
replacing the systems. If a noncompliant system is to be replaced for reasons not specifically
attributable to Y2K, the cost of replacement should not be reported as a cost to correct the
Y2K problem. However, any contract costs that are associated with the Bureau’s efforts in
assessing, renovating, and implementing Y2K-ready systems should be included in the
Bureau’s cost estimates.



These systems were deemed mission critical based on the systems’ effect on accounting for and distributing
funds to organizations, tribes, and individual Indians.

Tines of source code are statements and instructions used by the computer to execute the tasks of computer
programs. (Comouter Desktop Encyclopedia, Version 9.4,4th quarter, 1996)


                                                     4
Although the Bureau’s cost estimates were not auditable, we attempted to determine whether
the methodology used by the Y2K task group to develop cost estimates was reasonable based
on a “re-creation” of cost estimates for 2 of the 15 systems. The original methodology used
by the Bureau was based on an estimate of the percentage of date-sensitive lines of source
code to the total number of lines of source code multiplied by the Gartner Group’s’ estimated
cost of $1.70 per line of source code to be corrected.* We determined that the methodology
used to develop the costs was reasonable; however, the estimates had not been updated to
reflect more recent information that may affect the estimates. For example, applications that
run on the UNISYS platform were being “cleaned up” by deleting unnecessary lines of source
code, including the Oil and Gas module that had its total lines of source code reduced from
43,989 to 4 1,250. The methodology used by the Bureau may require that the estimated lines
of source code requiring remediation and the associated cost estimate be reduced. Also, the
cost to correct the Facilities, Construction, Operations, and Maintenance (FACCOM) system,
which is run on the IBM mainframe platform, for Y2K compliance will not be accomplished
through the code remediation effort, as originally anticipated by the Bureau. Instead, the
FACCOM system is scheduled to be replaced by March 1999. The replacement system is
necessary to allow the system to operate with current mainframe or client/server operating
systems, not for reasons directly related to correcting Y2K problems. Therefore, the
estimated cost of $254,000 reported to correct the Y2K problem for the FACCOM system
was overstated.

In addition, the cost of $4.8 million to remediate the Y2K problem in the Individual Indian
Monies (IIM) system as reported to the Department was incorrect. The $4.8 million was the
estimated cost for the first year of development and implementation of the IIM replacement
system. The IIM is being replaced for a number of reasons, such as to meet the requirements
mandated by the American Indian Trust Fund Management Reform Act of 1994, not just to
correct the Y2K problem; therefore, the $4.8 million reported to remediate the Y2K problem
was overstated. However, because the IIM replacement system is not planned to be
implemented until after the year 2000, costs to repair the existing system should be estimated
and reported to the Department.

Designation        of Responsible        Individuals

The Departmental Chief information Officer requested that we determine whether
responsible officials had been specifically named. As of March 18, 1998, the Assistant
Secretary for Indian Affairs had designated, by title, the Y2K executive; by office, the Y2K
coordinating offrce; and by name, the individuals who made up the Y2K task group. In
addition, a representative from the Office of the Special Trustee was included as part of the



‘A computer services company that provides independent advice to business professionals making information
technology decisions.

‘The task group estimated that about 10 percent of its total lines of source code were date sensitive. For
example, if a system had 425,000 lines of source code, 42,500 lines of source code would be date sensitive and
thus would require repair. The 42,500 was then multiplied by the Gartner Group’s cost estimate of $1.70 to
repair a line of source code, which would result in an estimated cost of $72,250.

                                                      5
Bureau’s Y2K task group. We believe that designating the Y2K executive by title and the
Y2K coordinating office by office rather than by name and title of individuals did not meet
the intent of the Chief Information Officer’s request to have responsible individuals named.

Annual Personnel Performance Evaluation Plans

The Secretary of the Interior’s December 1997 memorandum and the Assistant Secretary for
Indian Affairs February 1998 memorandum required that “a critical performance element for
identifying and remedying the Y2K” problem be included as part of each responsible
official’s annual performance plan. Responsible officials are defined in the memorandum
as agency directors, agency Y2K executives, agency information resources management
coordinators, safety officials, and all others as determined by the Y2K executive. In addition,
the Assistant Secretary required that the elements be included in the annual personnel
performance plans by February 27, 1998. However, as of March 18,1998, we found that
except for one member of the Y2K task group, the elements were not included in the annual
personnel performance plans of the Bureau’s and the Office of the Special Trustee’s Y2K
executives and the individual members of the Y2K task group, which included the Director,
Information Resources Management.

Plan for Milestones

We found no documentation to support the milestones established by the Bureau. The 15
systems included in the Bureau’s inventory were being evaluated and remediation was
planned for Y2K compliance. However, the milestone dates established in the Bureau’s Y2K
master plan for analyzing existing code had slipped by approximately 2 months. According
to a member of the Y2K task group, these dates were not met because the software tool
planned for use in identifying and assisting in remediating lines of source code was originally
estimated to be available in January 1998; however, as of March 18, 1998, the tool had not
been purchased. Therefore, the current Y2K master plan may not reflect achievable
milestone dates. However, Bureau officials indicated at the exit conference and in the
Bureau’s written response that they believed the acquisition of the “Millennium Solution”
tool has brought the Bureau back on schedule.

Contingency Plans

We found that a formal contingency plan had been developed for only 1 of the 15 mission-
critical systems. Since the milestone dates established by the Bureau have slipped by
approximately 2 months, there may be a need for formalizing contingency plans for the
remaining 14 systems. If additional mission-critical systems are subsequently identified (see
section “Automated Information Systems Inventory” in this report), contingency plans for
these systems may also need to be developed. However, the Y2K task group member
responsible for the Bureau’s application software and national systems stated that once the
software tool was acquired, the milestone dates established in the master plan for the 15
systems could be met through personnel efforts such as increasing the number of shifts
worked and the number of contractor staff.


                                              6
Other Issues

The Department of the Interior and the Offtce of Management and Budget required that an
inventory of all data exchanges with outside parties be completed by February 1, 1998, and
that coordination with these parties to determine a transition plan occur by March 1, 1998.
The Assistant Secretary for Indian Affairs had established a March 30, 1998, target date for
the Y2K task group to contact the tribes and tribal organizations to ensure that systems which
interface with Bureau systems are Y2K compliant. However, we found that the letter
requesting information from the Bureau’s data exchange partners to accomplish the
coordination effort had not been issued as of March 18, 1998.

The Bureau has reported to the Departmental Chief Information Offtcer that it has four
systems which are compliant except for independent verification and validation. However,
the Bureau has not conducted regression testing,’ integrated testing,” or Y2K testing on
these systems. Instead, the Bureau’s Y2K project management has relied on the recent
design and implementation of these systems.

On May 12, 1998, we held an exit conference to discuss a preliminary draft of the report
with Y2K officials from the Bureau and the Office of the Special Trustee and with the
Department’s Deputy Chief Information Officer. Office of the Special Trustee offtcials
generally agreed with our findings but provided no written response to the report. Bureau
officials also generally agreed with our findings and provided additional information in a
May 15, 1998, response (see Appendix 2). Based on the discussions and the response, we
made changes to the report as appropriate; however, we did not revise our report to reflect
changes or improvements made by the Bureau since March 18, 1998. In its response, the
Bureau stated that contracts had been awarded and corrective actions were being taken to
ensure that its automated information systems will be Y2K compliant.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of personnel at the Bureau of Indian Affairs and the Office
of the Special Trustee for American Indians in the conduct of our audit.




% software development, “regression testing” is defined as “testing a program that has been modified in order
to ensure that additional bugs have not been introduced.” (Cornouter Desktoa Encvclooedia, Version 9.4,4th
quarter, 1996.)

““Integratedll is defined as “a collection of distinct elements or components that have been built into one unit.”
 (Computer Desktop Ewclopedia,           Version 9.4,4th Quarter, 1996.)



                                                        7
                                                                                               APPENDIX 1
                                                                                                 Page 1 of 2




           BUREAU OF INDIAN AFFAIRS MISSION-CRITICAL
                      SYSTEMS INVENTORY*

                                                                                                 Estimated
                                                                                                  Cost for
System Name or Acronym                                    Description                           Compliance

Social Services                    A system that processes general assistance                          $72,250
                                   payments to individual Indians.

Individual Indian Monies           Tracks funds due individual Indians and tribes                  $4,800,000
(IIM)                              from leasing, permits, and other uses of Indian
                                   lands. (Interfaces with IRMS.)

Land Records Information           A land title system showing and tracking                           $68,000
System (LRIS)                      Indian ownership, including all rights
                                   conveyed or changed over time. Provides
                                   offtcial reports for title status and probate
                                   inventory.

Omni Trust ES                      A system for tracking funds applied to Indian                             0
                                   trust accounts and allotments to individual
                                   Indians. Records investing and payout
                                   information. (Interfaces with IRMS.)

Facilities, Construction,          Maintains facilities inventory data, prioritizes                  $254,000
Operations, and                    deferred maintenance deficiencies, monitors
Maintenance (FACCOM)               progress of constructions projects, and
                                   calculates operations and maintenance funding
                                   for all property owned or operated by the
                                   Bureau of Indian Affairs.

National Indian Irrigation         Tracks and bills assessments for costs of                          $42,500
Management System                  operations and maintenance of Indian
(NEMS)                             irrigation projects to be reimbursed to the
                                   Government.




‘Information for system name or acronym and for description is 6om the Bureau of Indian Affairs, and
information for estimated costs is Corn the February 1998 “Department of the Interior Year 2000 Management
Plan.”

                                                      8
                                                                                APPENDIX 1
                                                                                  Page 2 of 2


                                                                                  Estimated
                                                                                   Cost for
 System Name or Acronym                        Description                       Compliance
Lease/Range - Subsystem      A system for managing payouts for leases on              $43,000
of the Integrated Records    Indian lands, based on interests in contracts on
Management System            Indian lands.
(IRMS)

Owner - Subsystem of the     A system that tracks ownership of Indian tribal          $35,000
Integrated Records           and trust lands.
Management System
@MS)
People - Subsystem of the    A census and demographic database on                     $34,700
Integrated Records           individuals who are enrolled members of
Management System            tribes or who have interests in Indian trust
(IRMS)                       assets.

Royalty Distribution and     A tracking system for mineral and surface land            $9,200
Reporting System (RDRS)      ownership for oil and mineral leases.

Lease Distribution           A payout system for leases on Indian trust                $1,700
                             lands

Loan Management              A loan management and accounting system for                    0
Accounting System            economic development programs.
CLGMAS)

Osage Annuity System         A system to pay out monies to members of the                   0
                             Osage Tribe who are decedents of the original
                             Head Right owners.

Tribal Allocation Priority   A system that is used to develop budget                   $5,000
System (TAPS)                estimates based on tribal priorities.

Land Title Mapping           A geographical information system (GIS) that                   0
System (GIS)                 has been tailored to support the use and
                             application of spatial data technologies
                             throughout the Bureau of Indian Affairs.
                             Reports boundary and ownership in a land
                             status map.

                             Total                                                 $5.365.350
                                                                                                            APPENDIX 2
                                                                                                            Page 1 of 8




                          United States Department                              of the Interior
                                          BUREAU       OF INDIAN AFFAIRS
                                     INFORMATION RESOURCES MANAGEMENT
                                          OPERATIONS SERVICE CENTER
                                               500 GOLD AC’ENLZ.          SW.
IN REPLY REFER TO:                                    P.O. BOX 888
                                         ALBUQUERQUE.       NEW MEXICO           87103



          Memorandum                                                                      May   15, I998




          To:              Diane Sandy, Office of Inspector Geneml
                           Department of the Interior

                           Linda Richardson, Office of Audit & Evaluations
                           Bureau of Indian Al&its


          From:            NancyJemison, Year 2000 Executive
                           Bureau of Indian AiIairs


          Subject:         Year 2000 Review



          This is a follow up the telephone exit conference held on Tuesday May 12, 1998.

          Attached, you will lind the Bureau of Indian Affak (BIA) response to the Year 2000 audit
          review. Also attached, you will find a working draft, of the BIA Year 2000 Master Plan.


          During the telephone exit conference reference was make about publishing this infomiation
          to the IG Web site. The BIA’s Y2K Master Plan is a working dtaft, for this reason we do not
          want this docrmient published on any Web site , at this point in time.




                     RESPONSE   TO DO1 INSPECTOR   GENERAL’S                             SURVEY    REPORT
                                         YEAR 2000 REVIEW
                                                        BY
                                  THE    BUREAU        OF INDIAN                AFFAIRS


                                                15 MAY         1998



          Automated      Information Systems Inventory


          All of the Bureau’s mission and nonnrissionctitical automated i&otmation systems may
          not have been included in its inventory. According to the Department’s milestone dates,


                                                                     10
                                                                                                  APPENDIX 2
                                                                                                  Page 2 of 8




agexies   were required to have mission-critical systems inventoried and systems that were
not Y2K compliant identified by June 1997. Although national systems that were deemed
mission critical’by the Bureau had been identified and noncompliance had been
determined, 8 of the 12 Bureau axu-ea
                                   offices and 10 of 15 Bureau program and division
offices had not responded to inventory requests made by the Bureau’s Director, Office of
Management and Administration, in January,July, and September 1997. Therefonz, the
Bureau had little assurance that all mission and nonmission-critical systems had been
identified and reported to the Department’s Chief Information Officer.


BIA Response:

7X-eBL4 has pLx-ed our-h&best pnbn’@ on tbe iuventoxy of N&&al Systems, w&h am
m&ion cn*h’ca.B&i ‘s OIRM         OSCLS respons&le for mtitaiuiug all the Natrbnal
App&t&s,      most of which m housed on tbe U!y     pk.&onn iu ALBQ or on the lBM
in Reston at USGS. BL4 e.xpected a smalrespcrnse to the titcntozyrequest of these
nahonal systems &m area, agency or school offices.


 ?T+ nxogmke that diem may be i&xi safetyan4or progxam essenti systems Ui kn.-al
fxZties_ In order toe  coopem&     from areas, regenciesaud schools, tbe BL4 1’21k’
team has visited the foUow@- areas as of 1cfay15: Aberdeen, Billiags, Nas& PO&d,
Phoen& and Sarxame-nto.The Y2K Team F&Yvi& the nxmG&g An5as w&iu tbe next
30 days. l#e m-_&t of our visiti k a much h&Yierpa&-@a&on from local offices. As of
May 1470%    of POCtioxma&n      for embedded systems and telecommum&i&s
equ+ment haprebeen received fi-orn ax-as aud agencies. i%ese c&t2are be&g entered&o
au linentog- D&e.      with the help of Mitretek we are Lr the process of sen&g a
second data caU (See Attachment l), viz the use of electmm> foIms, to collect inventory
data of less cn*&alcomponents such as personaI computen, office automahbn so*,
I&zl databases,etc. Mr’tretekis also help& the BL4 develop a ~&u- 2000 web site (See
Attachment 2 for sample screens of the IEZS Web siti) to Eu-i&te informatioo
dirsentil&*on aud local sJstems/soti/hadwax  hlventory aud assessment.Am& agency
and school Y2K POCs who have Iotemet access miube able to enter and upd?tteiuventov
datafor locaii%h~~s, check comph&ce stztus ofhardwa&oflware agGst knowu
base&e comp&t.xe dafaancl/or usitgprocedums, andgenerate coniphIaucestatusrepm
online. Tr&s axe also encouraged to take advane of &is bcti& to suppo~ their 12h’
compbce     needs.


Auditable Cost Estimates



        ‘Theseqstems were deemedmissioncxitbl basedon the s+m’s effixt on accountingfor anddistriiutiq
fundsto opnizations, tribes,and individualIndians.



                                                      11
                                                                                                      APPENDIX     2
                                                                                                      Page  3    of 8




Thed ocumentation used to support the Bureau’s cost estimates for correcting the Y2K
problem in each of the Bureau’s 15 mission-critical systems was not maintained. To
accuratelyreport the costs associated with correcting the Y2K problem, Office of
Management and Budget guidelines state that costs to rectify noncompliant Y2K systems
should be specifically related to Y2K efforts, such as repairing the lines of source code* or
replacing the systems. If a noncompliant system is to be replaced for reasons not
specifically attributableto Y2K, the cost of replacement should not be reported as a cost to
correct the Y2K problem. However, any contract costs that are associated with the
Bureau’s efforts in assessing, renovating, and implementing Y2K-ready systems should be
included in the Bureau’s cost e&mates. Although the Bureau’s cost estimates were not
auditable, we attempted to determine whether the methodology used by the Y2K task
group to develop cost estimates was reasonable based on a “recreation’of cost estimates
for 2 of the 15 systems. The original methodology used by the Bureau was based on an
estimate of the pel-centage of date-sensitivelines of source code to the total number of
lines of source code multiplied by the Gartner Group’s’ estimated cost of $1.70 per line of
source code to be corrected.’ We determined that the methodology used to develop the
costs was reasonable; however, the estimates had not been updated to reflect more recent
infom&on that may affect the estimates. For example, applications tbat mn on the
UNISYS platform were being “cleaned up”by deleting unnecessruy lines of source code,
including the Oil and Gas module that had its total lines of source code reduced from
48,989 to 41,250. The methodology used by the Bureau would require that the estimated
lines of source code requiring remediation and the associated cost estimate be reduced.
Also, the cost to correct the Facilities, Construction, Operations, and Maintenance
(FACCOM) system, which is run on the IBM mai&ame platform, for Y2K compliance
will not be accomplished through the code remediation effort, as or&ally anticipatedby
the Bureau. Instead, the FACCOM system is being replaced by March 1999 because the
source code cannot be remediated so that the system can operate with current mai&ame
or client/server operating systems, not for reasons directly related to correcting Y2K
problems. Therefore, the estimated cost of $254,000 reported to correct the Y2K


      ‘Linesof sourcecode a~ statements
                                     andinstructions
                                                  usedby thecomputerto executethe tasksof
computer
       programs.(CornmIter Desktor,
                                  Enc~lcyKdia,
                                            Version9.1, kh quarter,
                                                                  1996)



      “A computerse&es companythatprides independent
                                                  adviceto businessprofession&making
ir&ormation
         technology
                  decisions.



         The task groupestimated   t&t about10 percent ofits totall&s ofsourcecodeore datesensitive.     For
example, ifa system had 425,000 lines of sounze
                                              code,42,500 lines ofwurce code would bc date scnsitiw ani thus
would require repair. Tk 42,500 \mstkn multiplied by the G-r      Group’s cost estimse of $1.70 torepair
                                                                                                       a Line
of source code+ which would nxult in an estimated cost of $72,250.




                                                           12
                                                                                           APPENDIX 2
                                                                                           Page 4 of 8




problem for the FACCOM       system was overstated.


In addition, the cost of $1.8 million to remediate the YZR problem in the Individual
Indian Monies (IIM) system as reported to the Department was incorrect. The $1.8
milhon was the estimated cost for the first year of development and implementation of
the IIM replacement system. The IIM is being replaced for a number of reasons, such
as to meet the requirements mandated by the American Indian Trust Fund Management
Refomr Act of 1994, not just to correct the >-2K problem; therefore, the $4.8 million
reported to remediate the Y2K problem was overstated. However, because the IIM
replacement system is not planned to be implemented until after the year 2000, costs to
repair the existing system should be estimated and reported to the Department.

BL4 Response:

T&e BA?Ais iu the process of set& up a project file, tichded in the He wiU be aLfsupport
documentahbu fC3rcost es&x&es. I3 3b i%&etek ‘sheIp, the BL4 LEdevelop& a 1‘ear
ZOO0 Master Plan (See Attachment 3 for a wow       olrafiof the BL4 y2K Master Plan).
Z?le Plaa more accuratelyaccouncSfor lk3r 2000 comph%nce e.xpenses.


77re BL4 y2K coo&uator had subrm’ttedau estimate of $62K for the Year 2&W
reme&hon of the LIM sub-g&em to the DOI Y2K coorcbkator mom than one year qgo.
DOI Office of the Spezikl Trustee had subm&ed Y2K inforuzatrbuto tbe same DO1 Y2K
coomktor. A de&ion tiside DOIled to the de&ion to h&de $4.8 nlillion m the Z&r
2000 cost for IIMrepJacemen~ &stead of $62K supphed by BL4.


Designation of Responsible      Individuals


The Assistant Secretary for Indian Affairs designated, by title, the YZR executive; by office,
the Y2K coordinating office; and by name, the individualswho made up the Y2K task
group. In addition, a representativefi-om the Office of the Special Trustee was included as
part of the Bureau’s Y2K task group. The Departmental Chief Information Officer
requested that we determine whether responsible officials had been specificallynamed.
We believe that designatingresponsrble individuals by title ratherthan by name and title
did not meet the intent of the Chief Inhormation Officer’s request to have responsrble
individuals named.

BlA Response:

l3e BL4 has a Year2OOOproject team wkch uas fbrmed & Febmw               1998. Z5e
Ditxtor of Mauqgement and A&niuk&n       is the BZ4 Year Zoo0 Esecutive wile is
nqwnsibZe for ensuring overall Year2OUOcompliance wi*khiutbe BL$, wfrilethe Office of




                                                   13
                                                                                         APPENDIX 2
                                                                                         Page 5 of a




Ik&omx&n Resorrrres Mmagement Is sekug as the I ‘ear2000 coo&a&g             ofice WI&
the BL4. 7le Director of Far&ties M+nagement i serw& as the BL4 k Embedded
Techuologv fiecutiw. I~I ad&ion, the follow& s&&is seniug on the BL4 i Z&r 2000
Tzk Group:

Nancy Jention                 ku-2000    Ex-ecurit-e
George Gover                  J~zI- 2000 Manager
BiU CoLheGJx                  Z&x- 2000 Embedded S’tem      E~ecuhiic
Ed.%cks                       Z&r 2000 Ckwc&ator
Mona MeId                     Year 2000 Appk&zu  S0fkva.mR- Nahbual S_tems
Ron Shepherd                  I&u-2000 lwUyzAv
Don Ma_wr                     X~r2000ilZ&&~me     H&M     R- So&are
Dr. Ken Ross                  Z&r 2000 Office of h&&u E&-ah& Prog7zun.5
Al Lhl&OlS                    Z&I- 2000 Embedded Cl+
Bvn   Carr                    Year 2000 TelephonefloiceData
Bob McKenua                   Year 2000 Office of Test Fwds Management
Cia&Jones                     lk3.r 2000 Law E&orcement
BiU Banner                    Year 2000 GIS S~tems


7he BIA k Year 2000 Tab G~zwp is eqected to ~IVW as l&r 2000 effonzspmgws
throughout the B&4 k Area Offices, Agencies, prvgxun offices aad schools. 73es-e iccal
offices have beguu to form l&-al lixr 2000 tik gmups de&&ted to tbe I&r 2000
compkce      e&&t To ass&tin pro&t management aud other lku 2000 actk&ks, rhe
B&4 has selected Mi-eteB, au independent contractor, to assistthe I iw- 2000 Txk Group
aud report ikspmgxss to the BIA k Year 2000 Executive.


Annual Personnel Performance Evaluation Plans


The Secretary of the Interior’s December 1997 memonmdum and the Assistant Secretary
for Iudian AfXairsFebruary 1998 memomndum required that “a criticalperformance
element for identifyingand remedying the YBK” problem be included as part of each
responsrble official’s annual perfomrance plan. Respousble officials are defined as
agency directors, agency Y2K executives, agency information resources management
coordinators, safety officials, and all others as detemrined by the Y2K executive. In
addition, the Assistant Secretary required that the elements be included in the annual
persomrel perfomrance plans by February 27,199s.         However, as of March 18,1998, we
found that except for one member of the Y2K task group, the elements were not included
in the amural personnel perfomrance plans of the Bureau’s and the Office of the Special
Trustee’s Y2K executives and the individual members of the Y2K task group, which
included the Director, Information Resources Management.




                                                14
                                                                                            APPENDIX 2
                                                                                            Page 6 of 8




BW Response:

lhe BL4 I ‘2h’Esecutive had sent out a memo to aU areas, zg-encies and schools fir d&s
purpose JO dap before IG’S kit. Due to the m’de geqpnPl&i           ch&ibution of tbe BIA ‘
                                                                                          s
offices, it ties    about 2 weeks for tbe k&mat~on to be communkated to the lower levels
of the field offices. 7&k could expllzinwh_vmost of tbe 1:2li’proJ’ectstaf%ers did0 ‘t hare it
iucluded in their annualpe-onnauce pLz~ at the t&e of IG3 audit U’e beiieve thishas
become staadardpractiicet&ay Ad&&z&             tbe Bt4 &have a cnticalpex&onnauce
element for iden+           and xemeding the E’2K added fl3ral field s&F&o am des&nated
as   z’zlk’
          Poiut    of cbnkzcl3(Poc).

Plan for Milestones

We found no documentation to support that the milestones established by the Bureau
were achievable. Furthermore, even though the 15 systems included in the Bureau’s
inventory were being evaluated and remediation was planned for YZK compliance, the
milestone dates established in the Bureau’s Y2K master plan had slipped by approximately
2 months. According    to a member of the Y2K task group, these dates were not met
because the software tool planned for use in identitLingand assisting in remediating lines
of source code was originahy estimated to be available in January 1998; however, as of
March 18,1998, the tool had not been purchased. Therefore, the current Y2K master
plan may not reflect achievable milestone dates.


B&l Response:


DITJjas demonswed           to B&l its Millennium SoJut& tooJ. B&l has tested the tool aud
has been using tbe tool for assessment and code reme&tion       for rhe last month. 7Xe
M3ster PJan had not been shbped by2 moat&s.

Miiestones aud nzounze requiremenrs ate we1 documented io tbe attzched Z’ear2000
Master PJan.


Contingency Plans

We found that a formal contiugency plan had been developed for only 1 of the 15
mission-critical systems. Since the milestone dates established by the Bureau have slipped
by approximately 2 months, there may be a need for formali&g contingency plans for the
remaining 14 systems. If additional mission-criticalsystems are subsequently identified
(see Section ‘Automated Information Systems Inventor in this report), contingency plans
for these systems may also need to be developed. However, the Y2K task group member
responsrble for the Bureau’s application software and national systems stated that once the




                                                   15
                                                                                                               APPENDIX 2
                                                                                                               Page 7 of a




softxu-e tool WLSacquired, the milestone dates established in the master plan for the 1.5
systems could be met &rough personnel efforts such as increasingthe number of shifts
worked and iucreasing the number of contmctor staff.


BU Response:

The B&l miube det-elop&g detailed conthgency                       pLms as part of the BIA IX        Rlaster
Phi.



Other Issues

The deadline established by the Department of the Interior and the Office of
Management and Budget mquired that an inventory of all data e&tang-es with outside
parties be completed by February l,199S,               and that coordination with these parties to
determine a transitionplan occur by Maxch 1, 199% The Assistant Secr&uy for Indian
A.ffairshad established a March 30,1998, target date for the Y2K task group to contact the
tribes and tribal orgarrizationsto ensure that systems which interfacewith Bureau systems
are Y2K compliant. However, we found that the letter requesting iuformation from the
Bureau’s data exchange partners to accomplish the cootdination effort had not been
issued as of March 18,199s.


BIA Response:


7Ze BZ4 has sent a letter on 31 Man4 1998 to ailknown Dat? fi&a.uge partueq some
of whch hap~ned to be Tnbes. No lettexs wen sent to those Tribes that do not have data
exchaqge r&h the B&l’s sptems. As a way ofprotidiag y2K supp~ to the Tribes, we
kite Tribes to BL4 local l&r 2ooO ~XO~ZZUL?O~ meetlirlgsaud we ph to she our Z&I
2000 Lnowle&e base wi2l.1
                        the Tribe thnxgh the use of our I’ear2ooO web io the near
hhuz?.


The Bureau has reported to the Departmental Chief Information Officer that it has four
systems that are compliant except for independent verificationand validation. However,
the Bureau has not conducted regression testing,‘integratedtesting,‘or Y2K testing on


          ‘In sofhcare development, “regressiontestin$ is dethd      as “testinga progmm that has been nmd&ed in
order to ensure that z&litional   bugshave not been introduced.’ (Computer Desktop Encyclopedia, Version 9.4,
4th quarter, 1996.)



          ‘Integrated* is defined as ‘a collection of distinct elements or components that bave been built into one
unit.”   KTomputer Desktop E11~~1otx~        Version 9.4,&h   Quarter, 1996.)




                                                              16
                                                                                        APPENDIX 2
                                                                                        Page 8 of 8




. these systems. Instead, the Bureau’s Y2I-Lproject management has relied on the recent
 design and implementation of these systems.

 BL4 Response:

 i’7”eBL4 has conttarted for I’zli’tes&   suppd,    Anteon has been selected to develop a
 testpIan that wil adahs   tesls me&wed    above. A schedule for conduchiqg these testsh
 iuchded in the attached Year 2000 Mwer      Ph.




 If you have auy questions on these materials, please refer questions to Ed Socks. Mr. Socks
 served as the audit coordinator for this retiew, office uumber 505218-7156,   email address:
 ed_socks@mail.bia.gov




 [NOTE:   YEAR 2000 MASTER PLAN NOT INCLUDED BY OFFICE OF INSPECTOR GENERAL.]




                                                   17
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
               THE OFFICE OF INSPECTOR GENERAL BY:


 Sending written documents    to:                            calling:


                     Wlthin the Continenttil’united     States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-5081 or
Mail Stop 5341                                        (202) 208-5300
Washington, D.C. 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                    Outside the Continental United States


                                    Caribbean Redon

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Redon

U.S. Department of the Interior                       (700) 550-7428 or
Office of Inspector General                           COMM 9-O11-671-472-7279
North Pacific Regioti
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
         :     Toll Free Numbers:
         :      l-800-424-5081
         :
         :      TDD l-800-354-0996
         :
         *
         :     FI’SKommerciai Numbers:
        I       (202) 208-5300
        :       TDD (202) 208-2420
        :
        :

.    :
        :
        m       HOTLINE
     :
               1849 C Street, N.W.
               Mail stop 5341
    i          Washington, D.C. 20240
     s
     :
     :
     :
     :
    :.
    z.
    *
    .
    :
    -
      ?...**     .. . . (
